(1 Ot 1U)

Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 1 of 6

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN PATRICK BLACKMON,
Petitioner-Appellant,

No.

FILED
SEP 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-35883

D.C. No. 2:16-cv-01592-RSL

v.

MEMORANDUM*
JEFFREY A. UTTECHT, Warden;
Respondent-Appellee.
Appeal from the United States District Court
for the Western District of Washington
Robert S. Lasnik, District Judge, Presiding
Argued and Submitted September 2, 2020
Seattle, Washington
Before: BYBEE and COLLINS, Circuit Judges, and STEARNS,** District Judge.
John Blackmon appeals the district court’s dismissal of his habeas petition,
challenging his convictions for child molestation in the second and third degree
and rape in the third degree. Blackmon contends that at his third trial (after hung

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The Honorable Richard G. Steams, United States District Judge for
the District of Massachusetts, sitting by designation.

(2 or iu)
Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 2 of 6

juries led to two mistrials), he was “unaware of his prerogative to assert or waive
[his] right [to testify],” or that he could “overrule his counsel” when she decided
to rest his case without calling him as a witness. Appellant’s Reply Br. at 1,6.
Blackmon also contends that his Fifth Amendment rights were further violated by
references to his previous trials by the prosecutor and a witness.1 We have
jurisdiction pursuant to 28 U.S.C. § 2254. We review de novo a district court’s
decision to deny a habeas corpus petition, see Dows v. Wood, 211 F.3d 480, 484
^(Sfth Cir. 2000), and review the district court’s subsidiary findings of fact under the

/?>,

clearly erroneous standard, see Hendricks v. Calderon, 70 F.3d 1032, 1036 (9th
Cir. 1995). We affirm.
The Antiterrorism and Effective Death Penalty Act (AEDPA) places express
limits on the power of a federal court to grant habeas relief to prisoners confined
under a state court judgment and sentence. See 28 U.S.C. § 2254(d). “[A] federal
court may grant habeas relief on a claim ‘adjudicated on the merits’ in state court
only if the decision ‘was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United
States.’” Waddington v. Sarausad, 555 U.S. 179, 190 (2009) (quoting 28 U.S.C. §
2254(d)(1)); see also Bell v. Cone, 535 U.S. 685, 693-94 (2002). A decision is

In a third uncertified claim, Blackmon asserts actual innocence of the rape
and molestation charges. Like the district court, we find no merit to this claim. See
Herrera v. Collins, 506 U.S. 390, 400 (1993).
2

19-35883

(3 Ot 1U)

Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 3 of 6

“contrary to” clearly established federal law “if the state court arrives at a
conclusion opposite to that reached by [the Supreme Court] on a question of law
or if the state court decides a case differently than [the Supreme Court] has on a
set of materially indistinguishable facts.” Williams v. Taylor, 529 U.S. 362, 412
13 (2000). Under 28 U.S.C. § 2254(d)(2), a state’s factual findings are entitled to
a presumption of correctness, Demosthenes v. Baal, 495 U.S. 731, 735 (1990), and
a petitioner must rebut these findings by “clear and convincing evidence.” 28
U.S.C. § 2254(e)(1).
1.

The state court’s determination that Blackmon knowingly and

voluntarily waived his right to testify was not contrary to clearly established
federal law. The Supreme Court is clear that every criminal defendant has a
fundamental constitutional right to testify on his own behalf that may not be
abrogated by counsel or by the court. Rock v. Arkansas, 483 U.S. 44, 53 (1987).
Indeed, the ultimate decision on whether to testify lies with the defendant. See
Jones v. Barnes, 463 U.S. 745, 751 (1983). However, no Supreme Court authority
requires the type of on-the-record colloquy that Blackmon seeks. The absence of
clearly established Supreme Court precedent dooms Blackmon’s claim.
Recognizing this, Blackmon cites to several of our previous decisions to support
his claim that a more thorough colloquy was necessary to determine whether his
waiver was knowing and voluntary. Blackmon’s reliance on those cases is

3

19-35883

(4 Ot 1U)

Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 4 of 6

misplaced as the Supreme Court has “repeatedly emphasized” that “circuit
precedent does not constitute clearly established federal law” in the habeas context.
Glebe v. Frost, 574 U.S. 21, 24 (2014) (internal quotations omitted).
Even if we could consider our prior holdings, those cases do not support
Blackmon’s argument. Although a defendant’s waiver of the right to testify “must
be knowing and voluntary, it need not be explicit.” See United States v. PinoNoriega, 189 F.3d 1089, 1094 (9th Cir. 1999) (citing United States v. Joelson, 7
F.3d 174, 177 (9th Cir. 1993)). “‘[Wjaiver of the right to testify may be inferred
from the defendant’s conduct and is presumed from the defendant’s failure to
testify or notify the court of his desire to do so.’” Id. at 1095 (quoting Joelson, 1
F.3d at 177). A defendant is also “presumed to assent to his attorney’s tactical
decision not to have him testify.” Id.
Here, Blackmon sat silent as his counsel rested. The trial judge “was
looking directly at Mr. Blackmon and his lawyer . . . [when] the defense rest[ed]
and . . . saw . . . nothing visual that occurred that would suggest or support the
notion that [Blackmon] was somehow or other surprised by this decision.” ER 57.
Further, Blackmon had testified at his first trial, and then had declined to testify at
his second trial after an extensive colloquy with the trial judge (who presided at all

4

19-35883

(b or iu)
Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 5 of 6

three trials) regarding his right to do so.2 The state court did not unreasonably
apply clearly established federal law in concluding that Blackmon’s decision not to
testify at his third trial was knowing and voluntary.
2. There was no error in the district court’s conclusion that Blackmon had
failed to exhaust his Fifth Amendment claims “based on the prosecutor and key
state witness making reference to his previous trials despite a ruling prohibiting
them from doing so.” Appellant’s Br. at 36. Exhaustion of state remedies is a
prerequisite for habeas relief. See 28 U.S.C. § 2254(b)(1)(A) (“An application for
a writ of habeas corpus on behalf of a person in custody pursuant to the judgment
of a State court shall not be granted unless it appears that. . . (A) the applicant has
exhausted the remedies available in the courts of the State ....”). In the
proceedings before the Washington Supreme Court, Blackmon asserted that the
victim’s reference to prior “trial” testimony and the prosecutor’s similar references
unfairly violated his Sixth Amendment right of confrontation and invited the jury
to conclude that he had been “convicted of another crime against the victim in the
previous trial proceedings.” SER 15. There was no contention that these

2 On the last day of trial testimony, the court inquired of the parties (with
Blackmon present) whether they would get to closings that day. Blackmon’s
counsel responded, “It’s possible if Mr. Blackmon chooses not to testify.” ER 31.
After presenting some additional evidence, the government rested. Blackmon’s
counsel then informed the court that the defense was also resting. Blackmon raised
no objection then or before the jury returned their verdict.
5

19-35883

(b or iu)
Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-1, Page 6 of 6

references to a prior “trial” violated his Fifth Amendment right against selfincrimination.
AFFIRMED.

6

19-35883

(/ Ot 1U)

Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-2, Page 1 of 4

United-States-Courtof-Appeals-for-theNinth-Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.

B.

Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

(» or iu)
Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-2, Page 2 of 4

►

►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’^'decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28 -1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

(y or iu)

Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-2, Page 3 of 4
The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms,------------------- —------------------------------------------—--------------------------------You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.
Bill of Costs (Fed. R. App. P. 39,9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

(iu or iu)
Case: 19-35883, 09/30/2020, ID: 11841753, DktEntry: 27-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www. ca9. uscourts. gov/forms/form 10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name] ” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID

No. of
Copies

TOTAL
COST

Pages per
Cost per Page
Copy

Excerpts of Record*

$

$

Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd, and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of3 volumes of excerpts ofrecord that total 500 pages fVol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms(a)ca9. uscourts. pov

Form 10

Rev. 12/01/2018

Case: 19-35883, 03/01/2021, ID: 12019457, DktEntry: 37, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 1 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JOHN PATRICK BLACKMON,
Petitioner-Appellant,
v.

JEFFREY A. UTTECHT, Warden,

No. 19-35883
D.C. No. 2:16-cv-01592-RSL
Western District of Washington,
Seattle
ORDER

Respondent-Appellee.
Before: BYBEE and COLLINS, Circuit Judges, and STEARNS,* District Judge.
Judge Collins has voted to deny the petition for rehearing en banc, and Judge
Bybee and Judge Steams so recommend. The full court has been advised of the
petition for rehearing en banc, and no judge has requested a vote on whether to
rehear the matter en banc. See Fed. R. App. P. 35. The petition for rehearing en
banc, filed February 4, 2021, is DENIED.

* The Honorable Richard G. Steams, United States District Judge for the District of
Massachusetts, sitting by designation.

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 1 of 19

1
2
3
4

5
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8

JOHN PATRICK BLACKMON,
Petitioner,

9
10

Case No. C16-1592-RSL-MLP

v.
REPORT AND RECOMMENDATION

11

JEFFREY A. UTTECHT,
Respondent.

12
13
14

15

I.

INTRODUCTION AND SUMMARY CONCLUSION

This is a federal habeas action filed under 28 U.S.C. § 2254. Petitioner John Blackmon

16

seeks to challenge in this action his 2013 Snohomish County Superior Court convictions on

17

charges of child molestation in the second degree, rape of a child in the third degree, and child

18

molestation in the third degree. Respondent has filed an answer to Petitioner’s amended habeas

19

petition together with relevant portions of the state court record, and Petitioner has filed a reply

20

brief in support his amended petition. This Court, having reviewed the submissions of the

21

parties, concludes that Petitioner’s amended petition for writ of habeas corpus should be denied

22

and this action should be dismissed with prejudice.

23

REPORT AND RECOMMENDATION
PAGE - 1

Case 2:16-cv-01592-RSL Documents Filed 05/08/19 Page 2 of 19

II.

1

BACKGROUND

2

A.

3

The Washington Court of Appeals, on direct appeal, summarized the facts underlying

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

Factual History

Petitioner’s convictions as follows:
Although the facts were disputed at trial, the evidence shows the
following. In 2007, John Patrick Blackmon lived in a three-bedroom home with
his wife, Jenifer Blackmon, and their three children, IB, ZB, and BB.
Blackmon’s oldest daughter, IB, reported that sometime before August
2008, he began sexually abusing her when she was 13 years old. Blackmon put
his hand down IB’s shorts and began rubbing her after the family had gone to bed.
IB testified that sometimes the abuse would occur three to four times per
week. She said he performed oral sex on her, placed his penis between her butt
cheeks, exposed her to pornography, had her stimulate him, and asked to shave
her pubic hair. IB testified that this abuse happened in Blackmon’s bedroom while
the two watched movies. He locked the door to prevent the other children from
coming into the room. Blackmon covered the gap between the door frame and
wall with a pillow or a towel to prevent anyone from peering into the room. IB
testified the abuse happened when her mother was at work or asleep. On occasion,
IB initiated the sexual contact because it made her feel closer to Blackmon.
The abuse stopped at the start of IB’s sophomore year of high school. She
told Blackmon she wanted a normal relationship with him without the sexual
activity. He agreed, but their relationship became contentious. For example,
Blackmon revoked her privileges and threatened to stop her from playing
basketball when she violated a rule against texting friends on the “no contact” list.
Report of Proceedings (RP) (July 5, 2013) at 516-17. IB described their
relationship as “[v]ery rocky” and “argumentative.” RP (July 5, 2013) at 392.
Soon afterwards, IB disclosed the abuse to her friend, MF. MF reported
the abuse to her mother, who then reported it to her husband, Mark Froland, an
Edmonds police officer. Officer Froland talked to IB and reported the abuse
allegation to Marysville Police Detective Cori Shackleton.

20
21
22
23

Blackmon was arrested and charged with various counts of molestation
and child rape involving IB. Two trials resulted in mistrials when the juries
deadlocked. The State refiled charges against Blackmon by fifth amended
information with two counts of second degree child molestation, one count of
third degree rape of a child, and two counts of third degree child molestation. The
jury convicted Blackmon as charged.
REPORT AND RECOMMENDATION
PAGE - 2

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 3 of 19

1
2
3
4
5

6

At sentencing, the trial court imposed 116 months on each count of second
degree child molestation (counts 1 and 2), 60 months on one count of third degree
rape of a child (count 3), and 60 months on each count of third degree child
molestation (counts 4 and 5). Counts 1 through 4 ran concurrent to each other and
consecutive on count 5, resulting in a total sentence of 176 months. The court also
ordered 36 months of community custody for each of the five counts. It indicated,
“The combined term of community custody and confinement shall not exceed the
statutory maximum.”
(Dkt. # 38, Ex. 2 at 2-3.)

7

B.

8

Petitioner appealed his convictions and sentence to the Washington Court of Appeals.

Procedural History

9

(See id., Exs. 2-8.) On December 22, 2014, the Court of Appeals issued an unpublished opinion

10

affirming Petitioner’s convictions but remanding the case for resentencing because the term of

11

confinement imposed by the trial court, when combined with the mandated term of community

12

custody, exceeded the statutory maximum for Petitioner’s crimes. (Id., Ex. 2 at 22-23.) Petitioner

13

thereafter moved for reconsideration of the Court of Appeals’ decision, and the motion was

14

denied on January 27, 2015. (Id., Exs. 9-10.)

15
16
17

Petitioner next sought review in the Washington Supreme Court. Petitioner presented the
following eight issues to the Supreme Court for review:
1.

Court of Appeals erred upholding trial court’s allowing the non-party to
enter stipulations of “probable cause” to bypass court’s obligations
established in the law.

2.

Court of Appeals erred upholding trial court’s allowing evidence admitted
in violation of constitutional rights and privilege to remain silent at
subsequent third trial proceeding, under guise of ER-106 rule.

3.

Court of Appeals erred upholding admission officer’s opinion testimonial
comments on guilt before the jury.

4.

Court of Appeals erred upholding trial court’s denial of mistrial motion

18
19
20
21
22
23

REPORT AND RECOMMENDATION
PAGE - 3

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 4 of 19

after victim and prosecutor chose to violate a motion in limine ruling
excluding mention of the prior trials before the third jury.

1
2
5.

Court of Appeals erred upholding prosecutor’s acts of misconduct,
allowing Mr. Blackmon prejudiced to right of a fair trial proceeding.

6.

Court of Appeals erred upholding trial court’s allowing the “crime victim
advocate” injury deliberation, giving input to the jury on the verdict it
rendered.

7.

Court of Appeals erred upholding trial court’s issuing an exceptional
sentence under the “free crime aggravator” for Mr. Blackmon’s first
criminal convict.

8.

Court of Appeals erred upholding verdict with biased jury member
present, when record established a lie during this vore [sic] dire
proceeding by jurior [sic] to remain in the selection jury pool.

3
4
5
6
7
8
9
10

{Id., Ex. 11 at 1-2.) The Washington Supreme Court denied review without comment on

11

September 2, 2015, and the Court of Appeals issued its mandate terminating direct review on

12

October 9, 2015. {Id., Exs. 12, 13.)

13

On October 17, 2016, Petitioner, through counsel, filed a personal restraint petition in the

14

Washington Court of Appeals. {Id., Ex. 14.) The Acting Chief Judge of the Court of Appeals

15

issued an order dismissing the petition on January 17, 2018. {Id., Ex. 21.) Petitioner thereafter

16

sought review in the Washington Supreme Court. {Id., Ex. 22.) Petitioner presented the following

17

two issues to the Supreme Court for review: (1) Petitioner’s trial counsel denied him his

18

constitutional right to testify; and (2) Petitioner is entitled to a new trial on the basis of newly

19

discovered evidence. {Id., Ex. 22 at 3-4.) On July 17, 2018, the Commissioner of the Washington

20

Supreme Court issued a ruling denying discretionary review. {Id., Ex. 25.) Petitioner thereafter

21

filed a motion to modify the Commissioner’s ruling, and that motion was denied on October 3,

22

2018. {Id., Exs. 26, 28.) Petitioner now seeks federal habeas review of his convictions.

23
REPORT AND RECOMMENDATION
PAGE - 4

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 5 of 19

III.

1
2
3
4
5
6
7
8
9
10

Petitioner identifies the following three grounds for relief in his amended petition for writ
of habeas corpus filed by his appointed counsel in December 2018:
GROUND ONE: Mr. Blackmon’s trial counsel and the trial court deprived him of
his constitutional right to testify when his attorney rested her case without first
obtaining a knowing, intelligent and voluntary waiver from Mr. Blackmon.
GROUND TWO: Evidence presented in Mr. Blackmon’s personal restraint
petition demonstrates that he is actually innocent and his conviction violates due
process.
GROUND THREE: References by the prosecutor and the key state witness to
previous trials violated Mr. Blackmon’s Fifth Amendment rights and entitle him
to habeas relief.
(Dkt. # 32 at 27, 34, 36.)
IV.

11
12

GROUNDS FOR RELIEF

DISCUSSION

Respondent asserts in his answer to the amended petition that Petitioner arguably

13

exhausted his first ground for relief, but that he failed to properly exhaust his second and third

14

grounds for relief. (Dkt. # 37 at 6-7.) Respondent argues that Petitioner’s unexhausted claims are

15

procedurally barred, and that Petitioner is not entitled to relief with respect to his single

16

exhausted claim. (See id. at 5-7, 11-14.) Petitioner, in his response to Respondent’s answer,

17

asserts that it is immaterial whether he exhausted his second ground for relief, that he properly

18

exhausted his third ground for relief, and that he is entitled to relief on all three of his asserted

19

grounds. {See Dkt. # 40.)

20

A.

21

A state prisoner is required to exhaust all available state court remedies before seeking a

Exhaustion/Procedural Default

22

federal writ of habeas corpus. 28 U.S.C. § 2254(b)(1). The exhaustion requirement is a matter of

23

comity, intended to afford the state courts “an initial opportunity to pass upon and correct alleged
REPORT AND RECOMMENDATION
PAGE - 5

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 6 of 19

1

violations of its prisoners’ federal rights.” Picard v. Connor, 404 U.S. 270, 275 (1971) (internal

2

quotation marks and citations omitted). In order to provide the state courts with the requisite

3

“opportunity” to consider his federal claims, a prisoner must “fairly present” his claims to each

4

appropriate state court for review, including a state supreme court with powers of discretionary

5

review. Baldwin v. Reese, 541 U.S. 27, 29 (2004) (citing Duncan v. Henry, 513 U.S. 364, 365

6

(1995) and O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999)).

7

“In order to ‘fairly present’ an issue to a state court, a petitioner must ‘present the

8

substance of his claim to the state courts, including a reference to a federal constitutional

9

guarantee and a statement of facts that entitle the petitioner to relief.’” Gulbrandson v. Ryan, 738

10

F.3d 976, 992 (9th Cir. 2013) (quoting Scott v. Schriro, 567 F.3d 573, 582 (9th Cir. 2009)). See

11

also Picard, 404 U.S. at 275-78 (1971) (proper exhaustion requires a petitioner to have “fairly

12

presented” to the state courts the exact federal claim he raises on habeas by describing the

13

operative facts and federal legal theory on which the claim is based). Claims that are based on

14

the same facts must be separately exhausted if they are supported by distinct constitutional

15

theories. See Gray v. Netherland, 518 U.S. 152, 162-63 (1996).

16

When a petitioner fails to exhaust his state court remedies and the court to which

17

petitioner would be required to present his claims in order to satisfy the exhaustion requirement

18

would now find the claims to be procedurally barred, there is a procedural default for purposes of

19

federal habeas review. See Coleman v. Thompson, 501 U.S. 722, 735 n. 1 (1991). When a state

20

prisoner defaults on his federal claims in state court, pursuant to an independent and adequate

21

state procedural rule, federal habeas review of the claims is barred unless the prisoner can

22

demonstrate cause for the default and actual prejudice as a result of the alleged violation of

23

REPORT AND RECOMMENDATION
PAGE - 6

Case 2:16-cv-01592-RSL Documents Filed 05/08/19 Page 7 of 19

1

federal law, or can demonstrate that failure to consider the claims will result in a fundamental

2

miscarriage of justice. Id. at 750.

3

To satisfy the “cause” prong of the cause and prejudice standard, a petitioner must show

4

that some objective factor external to the defense prevented him from complying with the state’s

5

procedural rule. Id. at 753 (citing Murray v. Carrier, All U.S. 478, 488 (1986)). To show

6

“prejudice,” a petitioner “must shoulder the burden of showing, not merely that the errors at his

7

trial created a possibility of prejudice, but that they worked to his actual and substantial

8

disadvantage, infecting his entire trial with error of constitutional dimensions.” United States v.

9

Frady, 456 U.S. 152, 170 (1982) (emphasis in original). Only in an “extraordinary case” may the

10

habeas court grant the writ without a showing of cause or prejudice to correct a “fundamental

11

miscarriage of justice” where a constitutional violation has resulted in the conviction of a

12

defendant who is actually innocent. Murray, All U.S. at 495-96.

13

1.

14

Petitioner asserts in his second ground for federal habeas relief that evidence presented in

15

his state court collateral proceedings demonstrates that he is actually innocent and his conviction

16

therefore violates due process. (Dkt. # 32 at 34.) The record makes clear that Petitioner never

17

presented any actual innocence claim nor any due process claim to the state courts. Instead,

18

Petitioner argued in his state court proceedings that he was entitled to a new trial based on newly

19

discovered evidence. Specifically, Petitioner argued in his personal restraint petition that new

20

evidence in the form of a receipt documenting the purchase date of a new bed upon which the

21

victim testified that at least one of the incidents of abuse occurred, and post-trial statements made

22

by the victim regarding the abuse, entitled him to a new trial. (Dkt. # 38, Ex. 14 at 30-33.) In his

23

motion for discretionary review to the Washington Supreme Court, Petitioner confined his newly

Ground Two: Actual Innocence

REPORT AND RECOMMENDATION
PAGE - 7

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 8 of 19

1

discovered evidence claim to the victim’s post-trial public statements. (Id., Ex. 22 at 12-14.) The

2

Supreme Court nonetheless addressed Petitioner’s newly discovered evidence claim in relation to

3

the receipt for the new bed and rejected the claim upon concluding that the receipt did not help

4

Petitioner’s defense. (Id., Ex. 25 at 3.)
Because Petitioner did not present any actual innocence or due process claim to the state

5

6

courts in relation to the alleged newly discovered evidence, Petitioner’s actual innocence claim

7

has not been properly exhausted. Petitioner argues that if he can show actual innocence, whether

8

he exhausted his claim in state court is immaterial. It is not entirely clear from Petitioner’s

9

briefing whether he intends to argue that his actual innocence provides a gateway for

10

consideration of an otherwise barred constitutional claim, or whether he intends to present a

11

freestanding claim of actual innocence.1 The Court will briefly address Petitioner’s actual

12

innocence claim in both contexts.

13

l.

Gateway Actual Innocence

The miscarriage of justice exception, if established, functions as a “gateway” permitting a

14
15

habeas petitioner to obtain review of claims of constitutional error that would otherwise be

16

procedurally barred. Carriger v. Stewart, 132 F.3d 463 (9th Cir. 1997). The Supreme Court has

17

cautioned that tenable gateway actual innocence claims are rare. McQuiggin v. Perkins, 569 U.S.

18

383, 386 (2013). “[A] petitioner does not meet the threshold requirement unless he persuades the

19

district court that, in light of the new evidence, no juror, acting reasonably, would have voted to

20

find him guilty beyond a reasonable doubt.” Id. (quoting Schlup v. Delo, 513 U.S. 298, 329

21
Petitioner appears to accept without challenge Respondent’s argument that he would at this
point be barred under RCW 10.73.010 from returning to the state courts to exhaust any
unexhausted claims because more than one year has now passed since his convictions became
final for purposes of state law.
1

22
23

REPORT AND RECOMMENDATION
PAGE - 8

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 9 of 19

1

(1995)); see also House v. Bell, 547 U.S. 518, 538 (2006) (emphasizing that the Schlup standard

2

is demanding and rarely met). In order to make a credible claim of actual innocence, a petitioner

3

must “support his allegations of constitutional error with new reliable evidence - whether it be

4

exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence -

5

that was not presented at trial.” Schlup, 513 U.S. at 324.

6

Petitioner contends that the bed receipt which he presented to the state courts on

7

collateral review establishes that he is actually innocent because it shows that the bed was

8

purchased after the date on which the victim testified that crimes occurred on that bed. (Dkt. # 32

9

at 34.) Petitioner overstates the significance of the receipt.

10

The victim testified at Petitioner’s third trial as to multiple incidents of abuse. As to one

11

of those incidents, when asked by the prosecutor if she could remember how old she was when

12

the incident occurred, she responded “It was my parents’ new bed, and I remember being light in

13

the room ... .” (Dkt. # 38, Ex. 32 at 352.) The victim testified that this was the first time she

14

ever touched Petitioner. (Id., Ex. 32 at 348-352.) Prior to this testimony, the victim testified that

15

an incident where Petitioner had put his mouth on her vagina had occurred at a time when her

16

parents had their “old bed.” (Id., Ex. 32 at 334.) Shortly after the victim made reference to the

17

“new bed,” she testified with respect to another touching incident which by her description

18

occurred later in time2, and she explained, “Like, I was in my bedroom and I remember it being

19

my parents’ old bed, because I remember dad, like, grabbing the headboard, like, the -- like the,

20

like, railing.” (Id., Ex. 32 at 353.) Shortly thereafter, the victim confirmed that this incident

21
22
23

2 The victim testified that this incident involved touching Petitioner’s penis. (Dkt. # 38, Ex. 32 at
353.)
REPORT AND RECOMMENDATION
PAGE - 9

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 10 of 19

1

occurred on her parents’ old bed. {Id., Ex. 32 at 355.) There was no further mention during the

2

victim’s testimony of abuse having occurred on the new bed. {See id., Exs. 32, 33.)

3

Petitioner argues here that a “vital issue” at trial was the date on which the alleged

4

improper sexual contact occurred, and that if the alleged misconduct could not have occurred on

5

the dates the victim alleged, it made her allegations factually impossible and cast doubt on the

6

veracity of her testimony in its entirety. {See Dkt. # 32 at 35.) However, the receipt, at most,

7

contradicts one very small portion of the victim’s testimony, testimony which the victim

8

effectively corrected a short time after it was offered. It is noteworthy that Petitioner’s counsel

9

chose not to cross-examine the victim on this point even though the record makes clear that

10

Petitioner possessed information at the time of his third trial regarding the date on which the new

11

bed was purchased {see dkt. # 38, Ex. 31 at 956), even if he did not possess the actual receipt.

12

This suggests that Petitioner’s counsel deemed any challenge to the victim’s single reference to

13

the new bed to be of limited value in bolstering Petitioner’s defense.

14

Petitioner fails to satisfy the very demanding Schlup standard as he makes no showing

15

whatsoever that no reasonable juror would have convicted him had the receipt for the new bed

16

been offered as evidence at trial. Petitioner’s gateway actual innocence claim therefore fails.

17

li.

Freestanding Actual Innocence

18

To the extent Petitioner intends to assert a freestanding claim of actual innocence rather

19

than a gateway claim of actual innocence, his claim also fails. The Court first notes that neither

20

the United States Supreme Court nor the Ninth Circuit has held that a freestanding claim of

21

actual innocence is cognizable on federal habeas review, though both courts have assumed

22

without deciding that such a claim is viable. See McQuiggin, 569 U.S. at 392 (“We have not

23

resolved whether a prisoner may be entitled to habeas relief based on a freestanding claim of
REPORT AND RECOMMENDATION
PAGE - 10

Case 2:16-cv-01592-RSL Documents Filed 05/08/19 Page 11 of 19

1

actual innocence.”); Herrera v. Collins, 506 U.S. 390, 417 (1993) (assuming without deciding

2

that the execution of an innocent defendant would be unconstitutional); Jones v. Taylor, 763 F.3d

3

1242, 1246 (9th Cir. 2014) (“We have not resolved whether a freestanding actual innocence

4

claim is cognizable in a federal habeas corpus proceeding in the non-capital context, although we

5

have assumed that such a claim is viable.”)

6

Assuming that a freestanding claim of actual innocence in a non-capital case is in fact

7

cognizable on federal habeas review, “the threshold showing for such an assumed right would

8

necessarily be extraordinarily high.” Herrera, 506 U.S. at 417. The Ninth Circuit has held that, at

9

a minimum, a petitioner “must go beyond demonstrating doubt about his guilt, and must

10

affirmatively prove that he is probably innocent.” Carriger, 132 F.3d at 476 (citing Herrera, 506

11

U.S. at 442-44 (Blackmun. J., dissenting)). As Petitioner has not met the less onerous standard

12

for establishing a gateway actual innocence claim, he clearly cannot meet the more rigorous

13

standard for establishing a freestanding claim of actual innocence. The bed receipt in no way

14

affirmatively proves that Petitioner is probably innocent of any of the crimes of which he was

15

convicted. Thus, any intended freestanding claim of actual innocence must be denied.

16

2.

Ground Three: Fifth Amendment Violation

17

Petitioner asserts in his third ground for federal habeas relief that references by the

18

prosecutor and a key state witness to previous trials violated his Fifth Amendment rights. (Dkt. #

19

32 at 36.) Petitioner’s third ground for relief comprises two claims presented to the state courts

20

on direct appeal. One of the issues presented to the Washington Court of Appeals on direct

21

appeal of Petitioner’s conviction was that the trial court erred in denying his motion for mistrial

22

after prosecution witness IB violated a motion in limine excluding references to prior trials. (See

23

Dkt. # 38, Ex. 3 at 30.) Petitioner argued in support of that claim that the testimony was improper
REPORT AND RECOMMENDATION
PAGE - 11

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 12 of 19

1

and prejudicial because the jury in his case, upon learning that there had been prior trials, might

2

have speculated that Petitioner exercised his right not to testify at the current trial because he had

3

been convicted after testifying at former trials. {Id., Ex. 3 at 31.) Petitioner claims that this would

4

have improperly allowed the jury to draw adverse inferences from the exercise of his right to

5

remain silent at trial. {Id.) In a separate claim, Petitioner argued that the prosecutor committed

6

misconduct in various ways, including by referring to a document as a “trial transcript,” which

7

Petitioner argued was prejudicial for the reasons cited in the preceding claim. {Id., Ex. 3 at 32,

8

36.)

9

The Court of Appeals rejected these claims. As to Petitioner’s claim regarding IB’s

10

violation of the motion in limine, the Court concluded that the violation was de minimis and that

11

the trial court properly denied the motion for mistrial. {Id., Ex. 2 at 12.) The Court explained that

12

“[cjonsidered in the context of numerous references to prior ‘hearings’ and ‘proceedings,’ the

13

jury was well aware that proceedings occurred before it was empaneled. IB’s isolated reference

14

to a trial disclosed nothing about the substance or result of any prior proceedings.” {Id.) The

15

Court of Appeals further noted that the alleged error could have been easily cured by a

16

cautionary instruction which Petitioner did not request. {Id.)

17

As to Petitioner’s prosecutorial misconduct claim, the Court of Appeals concluded that

18

Petitioner had not established any prejudice resulting from the prosecutor’s isolated reference to

19

a “trial” transcript, noting that the prosecutor immediately corrected the reference and Petitioner

20

did not interpose any objection. {Id., Ex. 2 at 15-16.)

21

In his petition for review to the Washington Supreme Court, petitioner claimed that the

22

Court of Appeals erred in upholding the trial court’s denial of his motion for mistrial, arguing

23

generally that the alleged error denied him his “constitutional right to a fair and impartial
REPORT AND RECOMMENDATION
PAGE - 12

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 13 of 19

1

verdict.” (Id., Ex. 11 at 11.) Petitioner also argued that the prosecutor's reference to a “trial

2

transcript” constituted prosecutorial misconduct and denied him a fair trial. (Id., Ex. 11 at 12-13.)

3

Petitioner at no point presented any claim to the Washington Supreme Court that the references

4

to the prior trial by the state’s witness and the prosecutor violated his Fifth Amendment rights.

5

That the facts Petitioner alleges in support of his Fifth Amendment claim were before the

6

state courts in the context of Petitioner’s allegations of trial court error and prosecutorial

7

misconduct is not sufficient to satisfy the exhaustion requirement. Because the record makes

8

clear that Petitioner did not present his Fifth Amendment claim to the Washington Supreme

9

Court for consideration, the claim has not been properly exhausted. And, as explained above, any

10

unexhausted claims are now procedurally defaulted because Petitioner would be time barred

11

from returning to the state courts to present any unexhausted claims.

12

Petitioner makes no effort to show cause or prejudice for his default of his third ground

13

for relief, nor does he make any credible showing that failure to consider the defaulted claim will

14

result in a fundamental miscarriage of justice. Petitioner therefore fails to demonstrate that his

15

unexhausted claim is eligible for federal habeas review. Accordingly, this Court recommends

16

that Petitioner’s amended petition for writ of habeas corpus be denied with respect to his third

17

ground for relief.

18

B.

19

Federal habeas corpus relief is available only to a person “in custody in violation of the

Section 2254 Merits Review

20

Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). A habeas corpus

21

petition may be granted with respect to any claim adjudicated on the merits in state court only if

22

the state court’s decision was contrary to, or involved an unreasonable application of, clearly

23

established federal law, as determined by the Supreme Court, or if the decision was based on an
REPORT AND RECOMMENDATION
PAGE - 13

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 14 of 19

1

unreasonable determination of the facts in light of the evidence presented. 28 U.S.C. § 2254(d).

2

Under the “contrary to” clause, a federal habeas court may grant the writ only if the state court

3

arrives at a conclusion opposite to that reached by the Supreme Court on a question of law, or if

4

the state court decides a case differently than the Supreme Court has on a set of materially

5

indistinguishable facts. See Williams v. Taylor, 529 U.S. 362, 405-06 (2000). Under the

6

“unreasonable application” clause, a federal habeas court may grant the writ only if the state

7

court identifies the correct governing legal principle from the Supreme Court’s decisions, but

8

unreasonably applies that principle to the facts of the prisoner’s case. See id. at 407-09.

9

The Supreme Court has made clear that a state court’s decision may be overturned only if

10

the application is “objectively unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 69 (2003). The

11

Supreme Court has also explained that “[a] state court’s determination that a claim lacks merit

12

precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the correctness

13

of the state court’s decision.” Harrington v. Richter, 562 U.S. 86, 88 (2011) (citing Yarborough

14

v. Alvarado, 541 U.S. 652, 664 (2004)).

15

Clearly established federal law means “the governing legal principle or principles set

16

forth by the Supreme Court at the time the state court rendered] its decision.” Lockyer, 538 U.S.

17

at 71-72. “If no Supreme Court precedent creates clearly established federal law relating to the

18

legal issue the habeas petitioner raised in state court, the state court’s decision cannot be contrary

19

to or an unreasonable application of clearly established federal law.” Brewer v. Hall, 378 F.3d

20

952, 955 (9th Cir. 2004) (citing Dows v. Wood, 211 F.3d 480, 485-86 (9th Cir. 2000)).

21

In considering a habeas petition, this Court’s review “is limited to the record that was

22

before the state court that adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S.

23

170, 181-82 (2011). If a habeas petitioner challenges the determination of a factual issue by a
REPORT AND RECOMMENDATION
PAGE - 14

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 15 of 19

1

state court, such determination shall be presumed correct, and the applicant has the burden of

2

rebutting the presumption of correctness by clear and convincing evidence. 28 U.S.C.

3

§ 2254(e)(1).

4

1.

Ground One: Right to Testify

5

Petitioner asserts in his first ground for federal habeas relief that his trial counsel and the

6

trial court deprived him of his constitutional right to testify when they failed to communicate his

7

right to testify and to ensure that any waiver of that right was knowing, intelligent, and

8

voluntary. (Dkt. # 32 at 27-33.) Respondent argues that Petitioner is not entitled to relief on this

9

claim because the United States Supreme Court has not clearly established that the trial court or

10

trial counsel are required to engage in an on the record colloquy to ensure that a criminal

11

defendant understands his choice not to testify before he is able to forfeit that right. (Dkt. # 37 at

12

11-14.)

13

The United States Supreme Court has recognized that a criminal defendant has a

14

constitutional right to testify in his own defense. Rockv. Arkansas, 483 U.S. 44, 49-52 (1987).

15

The Supreme Court has also recognized “that the accused has the ultimate authority to make

16

certain fundamental decisions regarding the case, as to whether to plead guilty, waive a jury,

17

testify in his or her own behalf, or take an appeal.” Jones v. Barnes, 463 U.S. 745, 751 (1983)

18

(citations omitted). However, the Supreme Court has never held that a court has an affirmative

19

duty to obtain a waiver of the right to testify.

20

The Ninth Circuit, which has a more robust body of case law surrounding this issue, has

21

recognized that a defendant’s waiver of his right to testify must be knowing and intentional, but

22

has held that such a waiver need not be explicit. United States v. Pino-Noriega, 189 F.3d 1089,

23

1094 (9th Cir. 1999) (citing United States v. Joelson, 7 F.3d 174, 177 (9th Cir. 1993)). Rather,
REPORT AND RECOMMENDATION
PAGE - 15

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 16 of 19

1

“waiver of the right to testify may be inferred from the defendant’s conduct and is presumed

2

from the defendant’s failure to testify or notify the court of his desire to do so.” Id. at 1095

3

(citing Joelson, 1 F.3d at 177). A defendant is also “presumed to assent to his attorney’s tactical

4

decision not to have him testify.” Id. “When a defendant remains ‘silent in the face of his

5

attorney’s decision not to call him as a witness,’ he waives the right to testify.” Id. (citing United

6

States v. Nohara, 3 F.3d 1239, 1244 (9th Cir. 1993)).

7

The Washington Supreme Court, in Petitioner’s personal restraint proceedings, rejected

8

his claim that he was denied his constitutional right to testify in his own defense. The Supreme

9

Court explained its conclusion as follows:

10
11
12
13

A defendant has a fundamental constitutional right to testify on his or her
own behalf, which may not be abrogated by trial counsel or the court. Rock v.
Arkansas, 483 U.S. 44, 107 S. Ct. 2704, 97 L. Ed. 2d 37 (1987); State v. Thomas,
128 Wn.2d 553, 558, 910 P.2d 475 (1996). The defendant has sole authority to
decide whether to testify. State v. Robinson, 138 Wn.2d 753, 758, 982 P.2d 590
(1999). Any waiver of the right to testify must be knowing, voluntary, and
intelligent. Id. But there is no requirement that the trial court obtain an on-therecord waiver by the defendant. Id. at 758-59.

14
15
16
17
18
19

20
21

22
23

In his declaration, Mr. Blackmon contends that his attorney “blindsided”
him by immediately resting after the State rested its case, providing no time for
discussion of whether he wished to testify. He states that he repeatedly told
counsel that he would like to testify and that he would decide after the State
rested. After his trial concluded, Mr. Blackmon moved for a new trial based on
the denial of his right to testify. The trial court denied the request, noting that Mr.
Blackmon had chosen to testify at his first trial, had chosen not to testify at his
second trial, and displayed no physical reaction at his third trial when defense
counsel rested. The trial judge observed Mr. Blackmon and saw no indication that
he was surprised by defense counsel resting without calling him to testify.
A petitioner must make more than bald assertions and conclusory
allegations to merit a reference hearing. In re Pers. Restraint ofRice, 118 Wn.2d
876, 886, 828 P.2d 1086 (1992). Rather, the petitioner must state with
particularity facts that, if proven, would entitle him to relief. Id. Here, Mr.
Blackmon presents nothing more than what he presented to the trial court in his
motion for a new trial. There, the court made findings and rejected Mr.
Blackmon’s claim based on the record and on direct observations of Mr.
REPORT AND RECOMMENDATION
PAGE - 16

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 17 of 19

1
2
3
4

Blackmon at trial. Mr. Blackmon presents no additional, competent, admissible
evidence that would entitle him to relief. The acting chief judge properly rejected
this claim as frivolous because it lacked any basis in fact.
(Dkt. # 38, Ex. 25.)
Petitioner rejects the suggestion that he is asking this Court to impose a new rule

5

requiring an on the record colloquy before a waiver of the right to testify may be deemed valid.

6

(See Dkt. # 40 and 3-4.) He insists instead that he has merely identified clearly established

7

Supreme Court precedent dictating that a waiver of the right to testify must be knowing,

8

intelligent, and voluntary, and has argued that, in his case, the waiver was not. (See id.)

9

Petitioner’s argument in his amended petition in support of his first ground for relief is

10

convoluted and somewhat difficult to follow, and it is therefore not surprising that Respondent

11

could have misinterpreted his claim. The Court accepts Petitioner’s representation, made in his

12

response to Respondent’s answer, that he simply intends to argue that the Washington Supreme

13

Court unreasonably determined that he knowingly, intelligently and voluntarily waived his right

14

to testify. (See id. at 4.)

15

Petitioner maintains that all the available evidence points to the conclusion that he did not

16

make a knowing, intelligent, and voluntary waiver of his right to testify, and he cites to his own

17

declaration in which he states that he informed his trial counsel of his desire and intention to

18

testify, and that counsel blindsided him by resting the defense case without providing him the

19

opportunity to testify. (See id., citing Dkt. # 32, Ex. 5 at 3-4.) Petitioner suggests that this

20

declaration demonstrates that he did not understand what his options were in regards to testifying

21

at his third trial and provides “incredibly probative evidence that he did not properly waive his

22

rights.” (Id.)

23
REPORT AND RECOMMENDATION
PAGE - 17

Case 2:16-cv-01592-RSL Documents Filed 05/08/19 Page 18 of 19

1

Petitioner’s declaration actually undermines any claim that he did not understand he had

2

a right to testify as he indicates therein that he had almost daily conversations with his counsel

3

about whether he would testify and that he “refused ANY waiver of [H]is Right to testify.” (Dkt.

4

# 32, Ex. 5 at 4-5.) And, though Petitioner claims in his declaration that counsel “robbed” him of

5

his right to testify, the fact remains that Petitioner made no effort to assert that right at trial. It

6

was not unreasonable for the state courts, on collateral review, to view Petitioner’s declaration in

7

the context of the entire record, or to conclude, based on that record, that Petitioner understood

8

his rights and had waived them. Petitioner suggests here that the state courts placed an undue

9

burden on him to produce evidence in addition to his self-serving declaration to support his claim

10

that he was deprived of his constitutional right to testify. However, it should not have been

11

unduly burdensome for Petitioner, who was represented by counsel in his personal restraint

12

proceedings, to produce supporting evidence if any such evidence existed.

13

Petitioner has not demonstrated that the Washington Supreme Court’s decision in relation

14

to his claim that he was denied his right to testify was contrary to, or constituted an unreasonable

15

application of clearly established Supreme Court precedent, nor has he demonstrated that the

16

decision was based on an unreasonable determination of the facts. Petitioner’s first ground for

17

federal habeas relief should therefore be denied.

18

C.

Certificate of Appealability

19

A petitioner seeking post-conviction relief under § 2254 may appeal a district court’s

20

dismissal of his federal habeas petition only after obtaining a certificate of appealability from a

21

district or circuit judge. A certificate of appealability may issue only where a petitioner has made

22

“a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(3). A

23

petitioner satisfies this standard “by demonstrating that jurists of reason could disagree with the
REPORT AND RECOMMENDATION
PAGE - 18

Case 2:16-cv-01592-RSL Document 41 Filed 05/08/19 Page 19 of 19

1

district court’s resolution of his constitutional claims or that jurists could conclude the issues

2

presented are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537

3

U.S. 322, 327 (2003). Under this standard, this Court concludes that Petitioner is not entitled to a

4

certificate of appealability with respect to any of the claims asserted in his amended petition.

5

6

V.

CONCLUSION

Based on the foregoing, this Court recommends that Petitioner’s amended petition for

7

writ of habeas corpus be denied and that this action be dismissed with prejudice. This Court also

8

recommends that a certificate of appealability be denied with respect to all claims asserted in this

9

federal habeas action. A proposed order accompanies this Report and Recommendation.

10

Objections to this Report and Recommendation, if any, should be filed with the Clerk and

11

served upon all parties to this suit by no later than twenty-one (21) days after the filing of this

12

Report and Recommendation. Objections, and any response, shall not exceed three pages. Failure

13

to file objections within the specified time may affect your right to appeal. Objections should be

14

noted for consideration on the District Judge’s motion calendar fourteen (14) days after they are

15

served and filed. Responses to objections, if any, shall be filed no later than fourteen (14) days

16

after service and filing of objections. If no timely objections are filed, the matter will be ready

17

for consideration by the District Judge on the date that objections were due.

18

DATED this 8th day of May, 2019.

19
20

MICHELLE L. PETERSON
United States Magistrate Judge

21
22
23

REPORT AND RECOMMENDATION
PAGE - 19

Case 2:16-cv-01592-RSL Document 41-1 Filed 05/08/19 Page lot 2

1
2
3.
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

8

JOHN PATRICK BLACKMON,
Petitioner,

9
10
11

Case No. C16-1592-RSL

v.

ORDER DENYING AMENDED
PETITION FOR WRIT OF HABEAS
CORPUS

JEFFREY A. UTTECHT,
Respondent.

12
13
14

The Court, having reviewed Petitioner’s amended petition for writ of habeas corpus, the

15

Report and Recommendation of Michelle L. Peterson, United States Magistrate Judge, any

16

objections thereto, and the remaining record, hereby finds and ORDERS:

17

(1)

The Report and Recommendation is approved and adopted.

18

(2)

Petitioner’s amended petition for writ of habeas corpus (Dkt. # 32) is DENIED,

19
20
21

and the petition and this action are DISMISSED with prejudice.
(3)

In accordance with Rule 11 of the Rules Governing Section 2254 Cases in the

United States District Courts, a certificate of appealability is DENIED.

22
23

ORDER DENYING AMENDED PETITION
FOR WRIT OF HABEAS CORPUS -1

Case 2:16-cv-01592-RSL Document 41-1 Filed 05/08/19 Page 2 of 2

1
2
3

(4)

The Clerk is directed to send copies of this Order to all counsel of record and to

the Honorable Michelle L. Peterson.
DATED this

day of

,2019.

4
5

6

ROBERT S. LASNIK
United States District Judge

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
ORDER DENYING AMENDED PETITION
FOR WRIT OF HABEAS CORPUS - 2

Case 2:16-cv-01592-RSL Document 41-2 Filed 05/08/19 Page 1 of 1

United States District Court
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

JUDGMENT IN A CIVIL CASE

JOHN PATRICK BLACKMON,
Petitioner,

CASE NUMBER: C16-1592-RSL

v.
JEFFREY A. UTTECHT,
Respondent.

Jury Verdict. This action came before the Court for a trial by jury. The issues have been
tried and the jury has rendered its verdict.

X

Decision by Court. This action came to consideration before the Court. The issues have
been considered and a decision has been rendered.

THE COURT HAS ORDERED THAT
The Report and Recommendation is adopted. Petitioner’s amended petition for writ of
habeas corpus under 28 U.S.C. § 2254 is denied, and this action is dismissed with prejudice.
Dated this

day of

.,2019.

WILLIAM M. McCOOL
Clerk

Deputy Clerk

Case 2:16-cv-01592-RSL Document45 Filed 10/11/19 Page lot2

1
2
3
4
5

6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8

JOHN PATRICK BLACKMON,

9

Petitioner,

10

Case No. C16-1592RSL

v.
ORDER DENYING AMENDED
PETITION FOR WRIT OF HABEAS
CORPUS

11
JEFFREY A. UTTECHT,
12
Respondent.
13
14

The Court, having reviewed Petitioner’s amended petition for writ of habeas

15
16

corpus, the Report and Recommendation of the Honorable Michelle L. Peterson, United

17

States Magistrate Judge, petitioner’s objections thereto (Dkt. # 42 and 44), and the

18

remaining record, hereby finds and ORDERS:

19
20

21
22

(1)

The Report and Recommendation is approved and adopted except as noted

(2)

Petitioner’s amended petition for writ of habeas corpus (Dkt. # 32) is

below.

DENIED, and the petition and this action are DISMISSED with prejudice.

23

ORDER DENYING AMENDED PETITION
FOR WRIT OF HABEAS CORPUS - 1

Case 2:16-cv-01592-RSL Document 45 Filed 10/11/19 Page 2 of 2

1

(3)

Under the amended version of 28 U.S.C7§’2233Xc), a petitioner maynot

2

appeal the denial of a habeas corpus petition unless the district court or the Ninth Circuit

3

issues a certificate of appealability identifying the particular issues that may be pursued

4
5

6

on appeal. United States v. Asrar. 116 F.3d 1268 (9th Cir. 1997). To obtain a certificate
of appealability, the petitioner must make a substantial showing of the denial of a
constitutional right. “Obviously the petitioner need not show that he should prevail on the

7

merits. He has already failed in that endeavor.” Barefoot v. Estelle. 463 U.S. 880, 893
8
n.4 (1983). Rather, he must demonstrate that the resolution of the habeas petition is
9
10
11
12

debatable among reasonable jurists or that the issues presented were “adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 483-84 (2000).
The Court finds that the dismissal of petitioner’s claims regarding whether he

13

waived his right to testify and whether his Fifth Amendment rights were violated may be

14

debatable among reasonable jurists and deserve to proceed further. The Court certifies

15

those issues for appeal. The actual innocence claim is not, however, debatable and should

16

not be the subject of an appeal.

17
18

(4)

The Clerk is directed to send copies of this Order to all counsel of record

and to Magistrate Judge Peterson.

19
Dated this 11th day of October, 2019.
20

21
22

Ml/f S CcUsto^C
ROBERT S. LASNIK
United States District Judge

23

ORDER DEN YING AMENDED PETITION
FOR WRIT OF HABEAS CORPUS - 2

Additional material
from this filing is
available in the
Clerk's Office.

